HHS/OIG, Audit - Baltimore City Health Departments Administration of the Baltimore EMA Ryan White Comprehensive AIDS Resources Act Grant Award for Fiscal Years 1998 through 2001, (A-15-02-20005)
Department
of Health and Human Services
Baltimore City Health Departments Administration of the Baltimore EMA Ryan
White Comprehensive AIDS Resources Act Grant Award for Fiscal Years 1998 through
2001, (A-15-02-20005)
November 19, 2002
Complete Text of Report is available in PDF format
(586 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Baltimore City Health
Department (BCHD) implemented Ryan White activities and spent its administrative
funding in a manner consistent with the CARE Act and other federal guidelines.
Overall, BCHD had implemented a comprehensive service delivery program for HIV/AIDS
patients living in the Baltimore Eligible Metropolitan Area; however, its administrative
activities and processes have not been entirely effective to ensure that program
results are achieved and federal funds awarded to contractors are used appropriately.
We made recommendations for improvement in the areas of cash management, program
monitoring, and fiscal monitoring.  The BCHD concurred with our findings
and recommendations.